                                      NATIONAL SCIENCE FOUNDATION
                                             4201 WI'LSON BOULEVARD
                                            ARLINGTON, VIRGINIA 22230




          OFFICE OF
      INSPECTOR GENERAL




    Date:             September 24, 1997

    TO:        :      I97030013




                                                          -F-
    From:                                  pecial Agent

    Via:              R   P   e   c   i     a   l ~~ent-in-charge?

1   Re :              Resolution of Case


    O n March 21, 1997, our




    Our office determined t h a m e c e i v e d only one grant from NSF, an SBIR Phase 1
    and no other SBIR contracts from any other federal agency. We also determined that
    has received no SBIR funding from any federal agency.

                                          in furtherance of its NSF g r a n t , i d not duplicate any
                                           Due to a lack of evidence to suggest any specific fraudulent
    acts regarding                            further investigation is not warranted at this time. This
    case is closed.
